Appendix 1

i

X

1
v!S 1 as
S3

1

/*
n
r-

Tu
W

1

IS.

•s I
H 1*1

i|

1S1
i-

j-

©

>

la

Order

County:

Supreme Court of Kansas
301 SW 10th Ave.
Topeka, KS 66612
785.296.3229

JOREL SHOPHAR

PRO SE

1900 E. GOLF ROAD STE 950
SCHAUMBURG, IL 60173
Appellate Case N. 20-123314-S

JOREL SHOPHAR,

PETITIONER

V.
JOHNSON COUNTY, KANSAS;
JUDGE CHRISTINA GYLLENBORG;
JUDGE KATHLEEN SLOAN;
KANSAS DCF; AND
KVC HEALTH,
RESPONDENTS.
THIS COURT HAS TEEN FOLLOWING ACTION:

2a

Date: November 23, 2020

Douglas T. Shima

Clerk of the Appellate Courts

3a

l,'

\

\
t*flpost*

Fins T*c^» ***-*-

ulS&s. $000.4is

®lje Supreme fflourt of ^Kansas

mm

KANSAS JUDICIAI CENTER
301S.W. 10THAVE.
TOPEKA, KANSAS66G12-ISQ7

ZIP 66506
041L12206128

>

•d
•d
(D

4^
fc

d

JVC-SOB 601 "73

%

Wto

Order

County:

Supreme Court of l^ansfasf
301 SW 10th Ave.
Topeka, KS 66612
785.296.3229

JOREL SHOPHAR

PRO SE

1900 E. GOLF ROAD STE 950
SCHAUMBURG, IL 60173
Appellate Case N. 20-123314-S

JOREL SHOPHAR,

PETITIONER,

V.
JOHNSON COUNTY, KANSAS;
JUDGE CHRISTINA GYLLENBORG;
JUDGE KATHLEEN SLOAN;
KANSAS DCF; AND
KVC HEALTH,
RESPONDENTS.
THIS COURT HAS TEEN FOLLOWING ACTION:
5a

Date: November 20, 2020

Douglas T. Shima

Clerk of the Appellate Courts

6a

Case 123314 CLERK OF THE APPELLATE COURTS
Filed Nov 20 PM 4:38

IN THE SUPREME COURT OF THE
STATE OF KANSAS

NO. 123,314
JOREL SHOPHAR,
Petitioner,
v.

Johnson County, Kansas;
Judge Christina Gyllenborg;
Judge Kathleen Sloan;
Kansas dcf,and

Kvc Health,
Respondents,

ORDER

7a

The court has considered and denies the petition for
writ of mandamus. Petitioner’s memorandum in
support of that petition is noted.

All entries of appearance are noted.

This case is closed.

Dated this 20th day of November 2020.

For the Court
/S/ Marla Lucklert

Marla Luckert
Chief Justice

8a

Appendix 3
IN THE DISTRICT COURT OF JOHNSON COUNTY,
KANSAS
Child In Need of Care Proceedings Under
Chapter 38 of K.S.A.
In the Interest of
S
Date of Birth

Case No. 18JC00230

S
B
Date of Birth

Case No. 18JC00229
Division 10

JOURNAL ENTRY
NOW ON this 3rc^ day of April, 2019, the
above-captioned cases come on for review before the
Honorable Kathleen L. Sloan, Judge of the District
Court, presiding.
Appearances are as follows: The State of
Kansas appears by Assistant District Attorney Erica
A. Miller; the minor children appear naught but by
Court appointed Guardian ad Litem, Richard P.
Klein; the mother appears naught, but by Court
appointed counsel, Marc H. Berry; the father appears
by telephone, pro se; Teena Wilkie, placement,
appears in person, pro se; the paternal aunt and uncle
appear in person, pro se. DCF is represented by
Stacey Bray and Amanda BainWysocki and KVC is

9a

represented by Saarah Ahmad.
The Court upon review of the file, finds and
concludes that all parties have been properly noticed
and served pursuant to the statute.
Previously, on October 18, 2018, the mother
entered a no contest statement that the children are
children in need of care pursuant to K.S.A. 38-2202
(d)(2), which is accepted by the Court as freely,
voluntarily, and upon advice of counsel made. That
same date, the Guardian ad Litem entered a
stipulation that the children are children in need of
care pursuant to K.S.A. 38-2202 (d)(1); (d)(2); (d)(3)
and (d)(ll).
Now, on the 3rd day of April, 2019, the State
presents evidence as to the father in the form of
sworn testimony and rests. No other parties present
evidence. The Court permits the father to listen to the
trial by telephone, but he is not permitted to testify
because he has not made arrangements to be sworn
and was given adequate notice of the trial date in
order to make arrangements to be sworn or
Clerk of the District Court, Johnson County Kansas
04/23/19 09:19am DM

10a

appear in person.
Based upon the evidence presented by the
State, the stipulation of the Guardian ad Litem, the
no contest statement of the mother and the
acceptance of the facts outlined in the petitions, the
Court finds and concludes, by clear and convincing
evidence, that the children are children in need of
care pursuant to K.S.A. 38-2202 (d)(1); (d)(2); (d)(3)
and (d)(ll). The Court adjudicates the same. The
Court then permits the father to speak to the Court.
He objects to the procedure of trial, which is noted
and overruled by the Court. The Court'finds good
cause to set out disposition. The Court grants the
State’s Motion to Dismiss Appeal. The Court takes
up the father’s Motion to Send Children to Sasuah
Shophar to State of Illinois and denies the motion.
The Court next takes up the fathers Motion to Return
Children to Jorel Shophar to State of Michigan ICPC.
The Court takes the motion under
advisement, but agrees that if the father provides his
home address to the court then the Court will issue a
Regulation 7 ICPC order.
The Court further finds that all previous
orders of the Court remain in full force and effect. The
Court further orders that the child remains in DCF
custody.
The Court finds and concludes the matter
should be and is hereby continue May, 2019, at 1:00
P.M. in Division 10 disposition.

11a

IT IS SO ORDERED

/s/ KATHLEEN SLOAN
Dated: 04/22/19

JUDGE OF THE DISTRICT COURT
Division No. 10
RESPECTFULLY SUBMITTED BY:
/s/ ERICA MILLER
Dated: 04/22/19
Erica A. Miller, #24544/rae

Clerk of the District Court, Johnson County Kansas
04/23/19 09:19am DM

12a

Appendix 4
IN THE DISTRICT COURT OF JOHNSON COUNTY,
KANSAS
Child In Need of Care Proceedings Under
Chapter 38 ofK.S.A.
In the Interest of:
DOB:

Case No. 18JC00229
S
A MALE CHILD UNDER AGE OF 18 YEARS
Division 10

ORDER
ICPC REGULATION 7 EXPEDITED PLACEMENT
Pursuant to K.S.A 38-1201 et. seq.
/T7*NOW ON THIS
day of September, 2019, the
motion pursuant to Regulation 7 promulgated
pursuant to K.S.A. 38-1202, Article VII of the
Interstate Compact on the Placement of Children
(ICPC); comes on for hearing before Judge
KATHLEEN SLOAN.
The Court finds that jurisdiction and venue are
proper. Notice to parties, interested parties and those
required to receive notice has been given as required
by law. The Court, having heard evidence, reviewed
exhibits including required by Paragraph 7 of
Regulation 7, considered the statements of parties
and/or the parties being in agreement, finds as
follows:
1. Pursuant to Article III (d) of the Compact, the
child noted above may only be placed in

13a

another states after receipt of written
notification from the receiving state that the
proposed placement does not appear to be
□contrary of the interests of the child.
2. Pursuant to Article V(a) of the ICPC, Kansas
retains jurisdiction over any child placed until
the child is adopted, reaches the age of
majority, becomes self-supporting, or is
discharged with concurrence of the appropriate
authority in the receiving state continues to
have financial responsibility for support and
maintenance of the child during the period of
placement in the receiving state.
THE COURT FURTHER FINDS Jorel Shonhar
is the proposed placement resource in the receiving
state of Illinois and is the parent of the child. The
child meets one or more of the requirements pursuant
to paragraph 5 of Regulation #7:
a. The child is in need of care due to sudden or recent
incarceration, incapacitation or death of a parent
or guardian; incapacitation means a parent or
giSrdian is unable to care for a child due to an
unexpected medical, mental or physical condition
of a parent or guardian.
OR
b. at least one of the children sought to be placed

14a

with the same proposed placement resource is four
years or younger;

□

Clerk of the District Court, Johnson County Kansas
09/19/19 2:45pm JL

OR
c. 0 the court finds that
SI
is one of the
children in a sibling group sought to be placed and has
substantial relationship with the proposed placement
resource; substantial relationship means the proposed
placement has spent more than cursory time with the
child, is known to the child, and has established more
than minimal bond with the child;
OR
d. the child is currently in an emergency placement.
THE COURT FURTHER FINDS it is in the best
interest of the child to seek:

rf-

(K) Approval for provisional placement of the
child noted above in the receiving state pending
a more comprehensive home assessment of the
potential placement resource by the receiving
state an expedited placement decision
regarding final placement of the child, or

h. ( ) A comprehensive home assessment of the
potential resource in the receiving state and an
expedited placement decision without a
provisional placement of the subject child, or
c. ( ) Approval for a provisional placement with
a parent from whom the child was not removed
15a

and concurrence to relinquish jurisdiction upon
final approval.
This matter set for hearing on the 2nd day of October,
2019, at 8:30 a.m.
IT IS SO ORDER.

/S/ Kathleen Sloan
Judge of the District Court
Submitted by:
/S/ Erica Miller
Erica Miller
Assistant District Attorney
Johnson County, Kansas
100 North Kansas, Ave, Olathe, KS 66061
913153102, FAX 715-3040
ERICA.MILLER@JOCOGOV.ORG
Clerk of the District Court, Johnson County Kansas
09/19/19 2:45pm JL

16a

Appendix 5
SHELDON COTLER, PH.D. ROBERT L
DAVENPORT, PH.D. JACK JOSEPH, PH.D.
LICENSED CLINICAL PSYCHOLOGISTS

NORTH SHORE CONSULTATION CENTER
NORTHBROOKE COURT PROFESSIONAL PLAZA
1535 LAKE COOK ROAD, SUITE 111
(847) 498 - 4744
FAX: (847) 498-4811

Forensic Mental Health Evaluation
Name: Jorel Shophar
Date of Birth:
Dates of Evaluation: February, March, 2020
Examiner: Jack Joseph, P.h.D. Clinical Psychologist
Date of Report: March 21, 2020
Referral & Background Information
Jorel Shophar was referred for a forensic mental
health examination in response to a requirement by
Kansas state officials that he pursue such an
evaluation. The purpose of this evaluation is to assess
for any mental health factors that might indicate a
mental health risk for Mr. Shophar to perpetrate
violence with any children in his care. He had
undergone a similar evaluation about four years ago
by Dr. George Athey, Jr., a clinical psychologist. In
his report dated February 1, 2016, Dr. Athey

17a

concluded that “(1) there are not mental health or
cognitive concerns to suggest risk for the type of
behavior that has been alleged, (2) the client
maintains a well-developed and benevolent
orientation to human relationships, (3) there ae no
indications of any attempt to dissimulate mental
health or to hide mental illness or violent
tendencies.” Dr. Athey went on to opine “it is my
opinion, within a reasonable degree of psychological
certainty, that the client poses no risk to his children
from the nature of his psychological adjustment and
state of mental health.” His recommendation were as
follows: “There are no indications of need for
treatment to correct any mental health problems that
would otherwise compromise his safety with his
children.”
Tests Administered & Information Sources
Adult Self Report Questionnaire
Daily Stress Index
Reynolds Intellectual Assessment Scales
Adult Retrospective Self-Concept Scale
Parenting Stress Index - 3rd Edition
Paulus Deception Scale
Thematic Apperception Test
Clinical Interviews

18a

Collateral Witness Interviews
Sasuah Angel Shophar (wife of 20-years)
Shophar Children Ages 17, 14, 5
Review of Records
Dr. George Athey, Jr., Report - February 1, 2016
Johnson County, Kansas Court Records-April 3,
2019
Summary & Recommendation
Jorel Shophar is a 46-year-old African American
male who is the owner of a security firm. He came
across in multiple clinical interviews and during
psychological testing as a calm, even-measured, and
articulate
individual
who
was
personable,
circumspect, and quite open with this examiner
throughout the testing sessions. He is a very
confident individual with a strong and stable sense of
self-worth. Jorel has also been tenacious in his efforts
to be reunited with his two biological children, J|
(born in 2011) and B|
(born in 2013). Both
children are currently wards of the state of Kansas
and are the biological product of a brief relationship
with another woman that he had had been involved
with in Kansas. Jorel and Angel would like to gain
custody of these children, be reunited with them, and
raise them to adulthood. They have not seen them for
nearly three years. Jorel is certain that both of these

19a

children have had traumatic experiences when with
their biological mother, with various foster parents,
and in institutions run by the state of Kansas.
Jorel and Angel were married in 2000 and have been
in a close relationship ever since. This couple have
three biological children ages 17, 14, 5 years old
whom they’ve raised together. This examiner has
met and interviewed their three children on multiple
occasions and have found them to be delightfully
charming well-behaved, responsible, and respectful
at all times.
Angel Shophar has also been
interviewed by this examiner. Angel is a soft-spoken,
gentle natured, and kind individual who has been a
wonderful mother to her three children and a great
partner to Jorel.
Results of the psychological testing on Jorel suggest
that all three of his children have been easy to raise.
Furthermore, Jorel comes across as being an
intelligent, open, energetic individual who manages
the stressors in his life quite effectively and has very
positive self-esteem. In short, Jorel is a well-adjusted
adult who does not qualify for any DSM-5 diagnosis.
Jorel is also strongly committed to his other two
children, j|m and B|
|, who are still wards of
the state of Kansas. Jorel and Angel are very
concerned for the welfare of these two children and
have been willing to expend whatever resources that

20a

are required in order to have them join the Shophar
family, and thus grow up in a stable, loving home.
Jorel and Angel are also prepared to provide J|
and B|
any and all services that they may
require in order to recover from their past traumatic
experiences.
This examiner concurs with the conclusion that were
expressed in Dr. Athey’s evaluation of February 1,
2016. Jebriel and Braden would be totally safe and
secure while in the care of Jorel and Angel Shophar.
Furthermore, there was nothing in Jorel’s
psychological profile that would require that he
should enroll in an anger management program, a
batteries intervention course, or parenting classes.
The three Shophar children are a testament to his
Angel’s parenting acumen.

/S/ Jack Joseph
Jack Joseph, Ph.D.
Licensed Clinical Psychologist
Illinois License No. 071.005132

21a

%4

Appendix 6

SHELDON COTLER, PH.D. ROBERT L
DAVENPORT, PH.D. JACK JOSEPH, PH.D.
LICENSED CLINICAL PSYCHOLOGISTS

NORTH SHORE CONSULTATION CENTER
NORTHBROOKE COURT PROFESSIONAL PLAZA
1535 LAKE COOK ROAD, SUITE 111
(847)498 - 4744
FAX: (847) 498-4811

Forensic Mental Health Evaluation Addendum
Name: Jorel Shophar
Date of Birth:
Examiner: Jack Joseph, P.h.D. Clinical Psychologist
Date of Addendum Report: June 1, 2020
Referral & Background Information
Jorel Shophar was referred to this examiner in
February and March of 2020 to undergo a forensic
mental health examination in response to a
requirement by Kansas state officials that he pursue
such evaluation. The purpose of that evaluation was
to assess for any mental health factors that might
indicate a mental health risk for Mr. Shophar to
perpetrate violence with any children in his care.
This examiner’s report dated March 21, 2020
concluded that Mr. Shophar is a well-adjusted adult
who has been an excellent parent to all three children

22a

•

*

■

that he and wife, Angel, have raised since their birth.
These children are currently 17, 14, and 5-years of
age.
The March 21st report further concluded that any
children in his care would safe, secure, and there was
nothing in Mr. Shophar’s psychological profile that
would suggest a propensity for domestic violence or
would require that he should enroll in an anger
management program, a batteries intervention
course, or parenting classes. A similar evaluation of
Mr. Shophar by Dr. George Athey, Jr., a clinical
psychologist in Kansas, came to the same conclusion
in 2016. The purpose of the current follow-up is to
reexamine these issues in light of updated
developments since March 21st including Kansas
Court proceedings, interviewing Mr. Shophar, again,
and interviewing his attorney, Rebecca Zarzecki,
again, and carefully scrutinizing various petitions
and documents which may shed additional light on
Mr. Shophar’s history with his biological children,
|, and their “journey” through the
|and B|
Kansas Court system.
Detailed Document Review and Updated Developments

Although this examiner previously reviewed the 2015
and 2018 Johnson County, Kansas Children in Need
of Care Petitions for B|
Shophar and J|
Shophar, these petitions were never directly

23a

discussed with the examiner’s March 21, 2020 report.
It is also assumed that Dr. George Athey Jr., 2016
evaluation of Jorel Shophar reviewed the 2015
petitions. At the time the September, 2015 petitions
were reported, B|
chronological age was about
2-years 8 months and J|
was about 3-years 9
months. At the time these children were initially
taken into custody by Kansas authorities, both
children resided with their biological mother, Krissy
Gorski. In August, 2015, the Kansas Department for
Children and Families (DCF) received a report
involving allegations of physical abuse and a lack of
supervision. The DCF worker was Kara Nicholson.
The 2015 Court Petitions for both children stated
that each parent accused the other being physically
abusive with children although Ms. Gorski admitted
that she had never actually witnessed Mr. Shophar
hit the boys. In particular, Ms. Gorski leveled a
litany of allegations toward Mr. Shophar including
that he threatened to kill her.
Ms. Nicholas
interviewed both children together after Ms. Gorski’s
interview concluded. The petition reports of both
children, including a follow-up interview concluded.
The petition reports of both children, including a
follow-up interview on September 3, 2015, where
J
was interviewed by Erin Miller-Weiss,
suggested that they said lots of nice things about
mother but accused their father of variety of abusive
behaviors. In carefully reviewing these interviews,

24a

this examiner believes that J|
had been coached
by Ms. Gorski and was also the victim of alienation
efforts by her toward Mr. Shophar. Not surprisingly,
there apparently was not clear and convincing
evidence in either case so the cases were
unsubstantiated on both parents. On September 28,
2015, the children were placed into DCF custody by a
Kansas judge due to the fact that Mr. Shophar and
Ms. Gorski filed Protection from Abuse actions
against each other in regards to the children. The
boys were referred to a foster care contractor for out
of home placement.
The following is a partial chronology as detailed by
the April 12, 2018 Children in Need of Care Petition
for j|
Shophar by the Johnson County, Kansas
Court System and DCF.
• Krissy Gorski worked with Kansas officials on the
reintegration
process
and
complete
her
reintegration plan on June of 2016 at which time
the children were released from DCF custody and
placed into her home.
•

On April 27, 2017, DCF received concerns for
age 5, being a child without parental
control. Concerns included that
had been
talking about “peepee in the butts” and when asked
about this,
stated that he had learned this
from a man. It is highly significant to note that
although the 2018 report does not mention this, the

25a

DCF concerns that they had received on April 27,
2017 came about due to the visits that Jorel
Shophar had with B|
and
on March 29,
2017 and April 26, 2017. During these two visits,
Mr. Shophar became very alarmed when the boys
started speaking in sexually explicit ways and
“got naked” in his vehicle as well. It was on
April 27, 2017 the next day, that Mr. Shophar
reported his concerns to the Topeka Police, the
Kansas Bureau of Investigation, Ben Cleaves, the
co-parenting therapist, the children’s therapist, and
others.
•

On May 3, 2017, Mr. Shophar filed a Protection
Order against Krissy Gorski in the Shawnee County
Court System, he also sent an email to Judge
Gyllenborg to notify her of this filing, and he visited
the Topeka Police Department in person for the
second time. Although Judge Mattivi from the
Shawnee Court refused to issue the Order of
Protection on May 3, 2017, she did set a hearing
date for May 24, 2017, to rule on the matter. On
May 24, 2017, the hearing took place before Judge
Mattivi.
She refused to issue the Order of
Protection and dismissed the case. This occurred
despite the DCF investigation that was launched on
April 27, 2017 and as second concern that DCF
received on May 15, 2017 with similar accusations
of sexual and emotional abuse of
and B
by their mother, Krissy Gorski. The 2018 Need
Petitioner Report suggest that upshot of the
complaints received by DCF from April 27, 2017 and

26a

•

•

May 15, 2017 was a referral made at some
unspecified later date for to Family Preservation
Services. The same date that Jorel Shophar’s
request for an Order of Protection was dismissed, he
went to the FBI in Kansas City to make a report.
However, despite all of Mr. Shophar’s efforts,
apparently no one did anything to protect these
children from their mother until nearly a year later
April, 2018. In fact, if anything, the Kansas Courts
moved aggressively against Mr. Shophar to block
him from his children’s lives.
On May 10, 2017, after practically shouting from
the rooftops to anyone who would listen that his
children were in grave danger, Mr. Shophar had his
last visit with B
and
|. It was during
this visit that he contacted the Topeka Police
Department again and communicated with
Sergeant Arensdorf. In his communications with
this officer on May 10th and 11th, Sergeant
Arensdorf suggested to him that he should not
return the children to their mother if he felt that
they would be in danger there (two audio recordings
were provided to this examiner).
On May 12, 2017, after having the children for two
days, Mr. Shophar decided to bring the children to
the Topeka Police Department so the police could
verify that the children were being kept safe by
their father. At the police station on May 12th,
another police officer notified Mr. Shophar that Ms.
Gorski had gotten a Court Order directing him to
return the children to her immediately.

27a

Subsequently, he obeyed the Court Order and left
the children with the Topeka Police on May 12,
2017. Ms. Gorski then picked up the boys and the
police station. He has never seen or had any contact
with
or B
since then.

All of these details regarding Mr. Shophar’s alarming
concerns and his attempts to protect his children
were never mentioned in the April, 2018 Need
Petition Report. Instead, that report noted Mr.
Shophar in May, 2017, “absconded with the children
and did not return them after his visit.” “In Johnson
County, Kansas,...he was ordered to only have
supervised parenting time after this occurrence,
which he has not exercised. Jorel Shophar is alleged
to have moved out of state and has not availed
himself to any follow-up court hearings that have
been held.” In order words, the April, 2018 Need
Petition Report suggested that he had abandoned his
children. Mr. Shophar’s narrative backed up by
corroborating evidence suggested what really
happened. Twelve days after he turned his children
over to Topeka Police, Judge Mattivi in Shawnee
County dismissed his Order of Protection case (on
May 24, 2017) which then cleared the path for Krissy
Gorski to disappear with the children. For nearly the
next year, Mr. Shophar believes that Ms. Gorski was
traveling between Michigan, Kansas, and Missouri to
keep his children hidden from him all while filing
more false allegations against him. Instead of
abandoning his children, he had been continually
trying to locate the whereabouts of his children. From

28a

May, 2017, to April, 2018, it was Krissy Gorski who
was hiding the children from Mr. Shophar. Since
April, 2018, after the State of Kansas again removed
the children from Ms. Gorski’s care, it has apparently
been the State of Kansas that has kept his children’s
whereabouts a secret and has even blocked Mr.
Slgfimr from communicating with B|
and

By April, 2018 Kansas authorities finally caught up
with Krissy Gorski based on a fresh litany of
horrendously egregious parenting behaviors and
removed the children from her home again. However,
instead of recognizing that Mr. Shophar had been
trying to expose Mr. Gorski to protect his children
and return the children to Mr. Shophar, they
appointed a permanent custodian for his children.
The April, 2018, Need Petition Report detailed how
this came to be. That report noted that Krissy Gorski
has a history of prostitution and both her children
told the authorities that “...she is gone all night long,
and other people what them.” DCF received these
concerns on April 27, 2017. On May 15, 2017, DCF
received a concern for emotional abuse of J
I, age
5 and B
|, age 4, by their mother, Krissy Gorski,
by an unknown
and alleged sexual abuse of
perpetrator.
The allegations included that Ms.
Gorski is teaching the boys sexually mature behavior
and they are exhibiting unusual sexual knowledge.
In addition,
had talked about tasting and
eating private parts and stated he has kissed a penis.
The 2018 Petition went on to state that the children
denied any sexual conduct of any form but it did not

29a

state exactly how or who investigated these
allegations in 2017 or what was concluded from this
“investigation”. On March 30, 2018, DCF received a
concern for physical neglect of J|
and B
ages 6 and 5, by their mother, Krissy Gorski.
Allegations included that she may be using drugs,
she had been observed as appearing inebriated or
high, and was repeatedly using former foster parents
to babysit the boys. The DCF case worker requested
a complete urinalysis on Ms. Gorski five days later.
It was positive for opiates, methamphetamines,
benzodiazepines, and oxycodone. Amazingly, the
children remained in mother care until April 12,
2018. By then, she left multiple messages to DCF
which suggested she was under the influence of drugs
and/or alcohol, a follow-up urinalysis was again
positive methamphetamines, she was arrested for
driving under the influence and child endangerment,
she was abusing Xanax, and leaving bizarre,
paranoid messages with DCF and police.
Ironically, the concerns that Jorel Shophar had
expressed to the Kansas authorities in the 2015
Children in Need Petition, which suggested that
Krissy Gorski was an abusive and neglectful parent
with lengthy history of prostitution, drug abuse, and
multiple felony convictions, were at that time
apparently not believed by Johnson County, Kansas
officials. However, the April 2018 Children in Need
Petition clearly supported his allegations toward Ms.
Gorski, which included that she is a chronic drug
abuser, a long-time prostitute, and a mentally
unstable individual who is clearly not capable of

30a

parenting any children. On April 12, 2018, a Kansas
from her home the
and B
judge removed
second time.
Throughout Mr. Shophar’s involvement with the
Kansas Courts, the only allegations leveled by
anyone that he was an abusive and/or neglectful
parent toward j|
or B
came from Krissy
Gorski, the chronic drug abuser, prostitute, and
convicted felon who should have had absolutely no
credibility. Her allegations were never corroborated
by anyone else including the State of Kansas. In
2019, according to Mr. Shophar, there was Kansas
judge’s order that J|
and B
be reunited
with Jorel and Angel Shophar and be reintegrated
into their family’s lives. On June 7, 2019 there was
a telephone conference with the Kansas KVC people
and Jorel to presumably develop a “care plan” to
accomplish this reunification goal. Inexplicably,
according to Jorel, Kansas officials have since
reneged on this commitment. Neither he nor his wife
Angel have seen or had any contact with J|
or
since May 12, 2017 despite his unrelenting
B
efforts to track down their whereabouts. The last
they had heard, B|
was in a foster home and
was struggling in a psychiatric hospital and
occasionally was put on restraints there. An internet
search by Mr. Shophar for the past two years
suggests that Krissy Gorski has continued to
evidence her criminal and drug addled path including
the following:
• March 28, 2018 — Johnson County, Kansas arrested for DUI under the influence of Meth.

31a

•
•
•

April, 2018 - Johnson County, Kansas - arrested
for Theft at a Target Store.
February 19, 2019 - Clay County, Missouri arrested for criminal drug possession.
March 6, 2019 - Johnson County, Kansas —
convicted for Identity theft.

This examiner continues to maintain the position
that Jorel Shophar is well-adjusted adult who has a
long history of being an excellent parent to the three
children that he and Angel have raised since their
birth. In sharp contrast to Krissy Gorski, he has no
criminal history, has never abused any drugs or
alcohol, and is a law-abiding citizen who runs his own
business. He has submitted to in-depth Forensic
Mental Health Evaluations by Dr. Georg Athey Jr. in
2016 and to this examiner in 2020 and neither of
these evaluations suggested that he has ever
exhibited or been predisposed to any inappropriate
anger or domestic violence issues toward his partner
or any of his children.
Despite the narrative
contained in the April, 2018 Children in Need
Petition by Johnson County, Kansas, he has not
and B
abandoned
Shophar but instead
has remained on an unwavering course in the past
three years to attempt to discover their whereabouts
and become their permanent parent despite all the
road blocks that he has encountered. The most recent
block occurred on April 14, 2020 in a hearing in a
Johnson County, Kansas courtroom. Judge Sloan
presided over the hearing. According to Mr. Shophar,
the main purpose of this hearing was to determine if
he had complied with this examiner’s initial Forensic

32a

Mental Health Evaluation which was completed in
March, 2020. This topic was never brought up at the
10-minute hearing. Instead, Richard Klein, JHH
and B|
Guardian Ad Litem, recommended to
Judge Sloan that both children needed to be
immediately moved out-of-state to an undisclosed
location.
No reason was given for this
recommendation but Judge Sloan approved it. All of
the participants at this hearing including Jorel
Shophar and Krissy Gorski took part via a Zoom-like
technology. Only Judge Sloan was physically in the
Johnson County Courtroom which was, due to the
Covid-19 Virus, closed at the time. There was also
nothing mentioned by the judge or GAL regarding the
length of this placement or whether it would ever be
reviewed by anyone.
On May 27, 2020 Jorel Shophar was served by local
sheriffs deputy with a request by Krissy Gorski for
an Order of Protection to be issued against him. The
hearing to determine whether an Order of Protection
should be issued was set to be heard by Judge
Gyllenborg for June 4, 2020 in the Johnson County,
Kansas Courthouse. Among a host of allegations by
Ms. Gorski, she reportedly has claimed that Mr.
Shophar has been stalking her for the past few
months. According to Mr. Shophar, he has had
absolutely no direct contact with Ms. Gorski since
May 10, 2017 and doesn’t have the slightest clue
where she lives nor does he have any of her current
contact information. He also has no desire to contact
this person.

33a

What is particularly perplexing to this examiner is
that Kansas, like every other state in the United
States, has countless children that are their wards
due to being the victims of egregious parental abuse
and neglect. In most states, the child welfare agency
cannot find enough quality homes that are willing to
permanently raise such children. In the case of
Hand B| ' |Shophar, it is clear to this
J
examiner that Krissy Gorski should have had her
parental rights permanently terminated in favor of
being raised in 2015 by what should have recognized
as their rightful parents, Jorel and Angel Shophar.
Yet it would seem that the State of Kansas would
prefer to leave these children in the care of a string
of foster homes and even in institutional settings.

IS/ Jack Joseph
Jack Joseph, Ph.D.
Licensed Clinical Psychologist
Illinois License No. 071.005132

J

34a

Appendix 7: All Seven of the Petitioner’s 3 hour
visits with his children in 2017. Documented and
witnessed on 4 occasions by a Court ordered therapist
and Parenting Instructor; Janet Mitchell.
1. https://www.facebook.com/iorelrshophar/nosts/

1482300731789099
2. https://www.facebook.com/iorelrshophar/posts/

1489615544390951
3. https://www.facebook.com/iorelrshophar/posts/

1498585083493997
4. https://www.facebook.com/iorelrshophar/posts/

1502718319747340
5. https://www.facebook.com/iorelrshophar/posts/

1524965050856000
6. https://www.facebook.com/iorelrshophar/posts/

1525056220846883
7. https://www.facebook.com/iorelrshophar/posts/
1527144833971355

35a

Appendix 8: The Petitioner documented events
through audio and video to protect himself and his
other family from the beginning. He classified each
video evidence as Part 1, Part 2, and Part 3. There
is more evidence that the Petitioner has not made
public. This evidence has been used by State and
Federal Courts concerning this matter.
Part 1: https://www.vimeo.com/279097759
Part 2: https://www.vimeo.com/278003779
Part 3: https://www.vimeo.com/279064934
Appendix 9:
Krissy Gorski has practiced
prostitution in the State of Missouri and State of
Kansas, and State of Michigan, even to this day in the
dangerous times of COVID-19, using the name
KAYLA KRISSY KAYCE, publically soliciting
herself for prostitution with strangers, which resulted
in children being sexually abused in her home. All
Courts in State and Federal are aware of the online
attachments, which were used in Court as evidence.
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590

36a

Appendix 10. This is evidence that the Petitioners
home was a place of events for the entire
neighborhood, with no problems with children.
https://www.vimeo.com/279097759 Time 2:57 — 4:04

Appendix 11 online evidence of audio recording of
Krissy Gorski, who contrive falsehood in the Court of
Law, in State and Federal Courts in Michigan,
Kansas and Illinois, for over 5 XA years, even to this
day, and never being penalized for perjury.
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759

37a

Time 9:05 —9:28
Time 9:57 —10:09
Timel2:30 -13:18
Timel3:49 -15:21

